VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                        Inspection of 

                                                                     VA Regional Office 

                                                                    San Juan, Puerto Rico 





                                                                                     July 12, 2013
                                                                                     13-00586-228
             ACRONYMS AND ABBREVIATIONS 



OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations:

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                  Report Highlights: Inspection of VA
                  Regional Office San Juan, Puerto Rico

Why We Did This Review                            Gulf War veterans’ entitlement to mental
                                                  health treatment. VARO staff provided
The Veterans Benefits Administration              adequate outreach to homeless veterans in
(VBA) has 56 VA Regional Offices                  the VARO’s area of jurisdiction.
(VAROs) and 1 Veterans Service Center
nationwide that process disability claims and     What We Recommend
provide a range of services to veterans. We
evaluated the San Juan VARO to see how            The VARO Director should implement a
well it accomplishes this mission.                plan to ensure staff enter suspense diaries in
                                                  the electronic record and review for
What We Found                                     accuracy the 132 temporary 100 percent
                                                  disability evaluations that we provided at the
VARO staff did not accurately process             end of this inspection. Management should
26 (59 percent) of 44 disability claims we        develop and implement a plan to ensure
reviewed. We sampled claims that we               effective second-signature reviews of TBI
considered to be at higher risk of processing     claims.      The Director also needs to
errors, thus these results do not represent the   implement a plan to ensure staff completely
overall accuracy of disability claims             and timely address all required elements of
processing at this VARO.                Claims    Systematic Analyses of Operations.
processing lacks consistent compliance with
VBA procedures and is increasing the risk         Agency Comments
of inaccurate and unnecessary benefits.
                                                  The VARO Director generally concurred
Specifically, 21 of 30 temporary 100 percent      with our recommendations. The Director
disability evaluations we reviewed were           non-concurred     in    part    with     the
inaccurate, generally because VARO staff          recommendation to review 132 temporary
did not establish suspense diaries in the         100 percent disability evaluations because
electronic record as required. Management         VBA is tracking these evaluations at a
did not provide effective oversight of            national level. Management’s actions are
second-signature reviews and therefore staff      responsive and we will follow up as required
incorrectly processed 5 of 14 traumatic brain     on the VARO’s progress in completing its
injury (TBI) claims completed from July           review of the 132 disability evaluations.
through September 2012.                           The VARO expects appropriate action to be
                                                  completed in June 2013.
Systematic Analyses of Operations were
incomplete and untimely. VARO managers
lacked adequate measures to ensure staff
addressed all required elements of the
annual analyses and submitted them by the                   LINDA A. HALLIDAY
due dates. Further, staff did not always                 Assistant Inspector General
address or document decisions regarding                  for Audits and Evaluations

                                                                                               i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 
Results and Recommendations ........................................................................................................2
 
    I. 	 Disability Claims Processing ...............................................................................................2
 
           Finding 1              San Juan VARO Could Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 
                                  Recommendations........................................................................................7
 
    II. 	Management Controls ..........................................................................................................9

           Finding 2              Oversight Is Needed To Ensure Timely and Complete Systematic 

                                  Analyses of Operations ................................................................................9

                                  Recommendation .........................................................................................9

    III. Eligibility Determinations..................................................................................................11

           Finding 3	             Gulf War Veterans Did Not Always Receive Entitlement Decisions 

                                  for Mental Health Treatment .....................................................................11

    IV. Public Contact ....................................................................................................................12

Appendix A                 VARO Profile and Scope of Inspection ............................................................13
 
Appendix B                 Inspection Summary..........................................................................................15
 
Appendix C                 VARO Director’s Comments............................................................................16
 
Appendix D                 Office of Inspector General Contact and Staff Acknowledgments ...................19
 
Appendix E                 Report Distribution ...........................................................................................20
 




                                                                                                                                                 ii
                                                                Inspection of VARO San Juan, PR



                    INTRODUCTION
Objective           The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Division contributes to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Scope of            In January 2013, we inspected the San Juan VARO. The inspection focused
Inspection          on the following four protocol areas: disability claims processing,
                    management controls, eligibility determinations, and public contact. Within
                    these areas, we examined two high-risk claims processing areas: temporary
                    100 percent disability evaluations and traumatic brain injury (TBI) claims.
                    We also examined three operational activities: Systematic Analyses of
                    Operations (SAOs), Gulf War veterans’ entitlement to mental health
                    treatment, and the homeless veterans outreach program.

                    We reviewed 30 (19 percent) of 162 rating decisions where VARO staff
                    granted temporary 100 percent disability evaluations for at least 18 months.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to Veterans Benefits
                    Administration (VBA) policy. We examined the available 14 of the total
                    16 TBI claims that VARO staff had completed during the period July
                    through September 2012.

Other               	 Appendix A includes details on the VARO and the scope of our
Information            inspection.
                     Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                     Appendix C provides the VARO Director’s comments on a draft of this
                       report.



VA Office of Inspector General                                                                1
                                                                          Inspection of VARO San Juan, PR



                    RESULTS AND RECOMMENDATIONS
                    I. Disability Claims Processing
Claims	             The OIG Benefits Inspection team focused on accuracy in processing
Processing          temporary 100 percent disability evaluations and TBI claims. We evaluated
Accuracy            these claims processing issues and assessed their impact on veterans’
                    benefits.

Finding 1 	         San Juan VARO Could Improve Disability Claims Processing
                    Accuracy

                    The San Juan VARO did not consistently process temporary 100 percent
                    disability evaluations and TBI cases accurately. Overall, VARO staff
                    incorrectly processed 26 of the total 44 disability claims we sampled,
                    resulting in 140 improper monthly payments to 7 veterans totaling
                    $208,368 and ranging from November 2007 until January 2013.

                    We sampled claims related to specific conditions we considered at higher
                    risk of processing errors. As a result, the errors identified do not represent
                    the universe of disability claims processed at this VARO. As reported by
                    VBA’s Systematic Technical Accuracy Review program as of November
                    2012, the overall accuracy of the VARO’s compensation rating-related
                    decisions was 80.5 percent—9.5 percentage points below VBA’s
                    FY 2013 target of 90 percent.

                    The following table reflects the errors affecting, and those with the potential
                    to affect, veterans’ benefits processed at the San Juan VARO.

Table 1                        San Juan VARO Disability Claims Processing Accuracy
                                                                        Claims Inaccurately Processed

                            Type of Claim         Reviewed      Affecting       Potential To
                                                                Veterans’      Affect Veterans’       Total
                                                                 Benefits          Benefits
                    Temporary 100 Percent
                                                    30              5                 16                21
                    Disability Evaluations
                    Traumatic Brain Injury
                                                    14              2                  3                5
                    Claims
                    Total                           44              7                 19                26
                    Source: VA OIG analysis of VBA’s temporary 100 percent disability evaluations paid at
                    least 18 months or longer and TBI disability claims completed in the fourth quarter FY 2012




VA Office of Inspector General                                                                                2
                                                                  Inspection of VARO San Juan, PR


Temporary           VARO staff incorrectly processed 21 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following a veteran’s
                    surgery or when specific treatment is needed. At the end of a mandated
                    period of convalescence or treatment, VARO staff must request a follow-up
                    medical examination to help determine whether to continue the veteran’s
                    100 percent disability evaluation.

                    For temporary 100 percent disability evaluations, including confirmed and
                    continued evaluations where rating decisions do not change veterans’
                    payment amounts, VSC staff must input suspense diaries in VBA’s
                    electronic system. We identified 14 instances where suspense diaries were
                    not established as required. A suspense diary is a processing command that
                    establishes a date when VARO staff must schedule a reexamination. As a
                    suspense diary matures, the electronic system generates a reminder to alert
                    VARO staff to schedule the reexamination.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at risk of paying inaccurate financial benefits. Available
                    medical evidence showed 5 of the 21 processing errors we identified affected
                    veterans’ benefits and resulted in 104 improper monthly payments totaling
                    $198,593 from as early as November 2007 until the time of our inspection.
                    Details on the most significant overpayment and underpayment follow.

                    	 A Rating Veterans Service Representative (RVSR) correctly continued a
                       temporary 100 percent disability evaluation of a veteran's
                       service-connected prostate cancer and annotated the need for a routine
                       future examination in June 2007; however, VSC staff did not input a
                       suspense diary in the electronic system as required. Therefore, a
                       reminder notification to schedule the reexamination did not generate.
                       VA treatment reports showed the veterans’ prostate cancer was no longer
                       active and the temporary 100 percent disability evaluation was no longer
                       supportable per VBA’s policies. As a result, VA overpaid the veteran
                       $174,186 over a period of 5 years and 2 months.
                    	 An RVSR did not establish a veteran’s entitlement to special monthly
                       compensation based on multiple disabilities, as required. As a result, VA
                       underpaid the veteran $11,028 over a period of 2 years and 10 months.

                    The remaining 16 of the total 21 errors had the potential to affect veterans’
                    benefits. In most cases, we could not determine whether the evaluations
                    would have continued because the veterans’ claims folders did not contain
                    the medical examination reports needed to reevaluate each case. In cases
                    where routine future medical reexaminations were not scheduled as required,
                    claims processing delays ranged from approximately 1 year and 2 months to
                    7 years and 1 month. An average of approximately 3 years and 5 months



VA Office of Inspector General                                                                  3
                                                                  Inspection of VARO San Juan, PR


                    elapsed from the time staff should have scheduled these medical
                    reexaminations through January 2013.

                    Summaries of the total 21 errors we identified follow.

                    	 Fourteen errors occurred when staff did not establish suspense diaries in
                       the electronic record, thereby removing the possibility that staff would
                       receive reminder notifications to schedule medical reexaminations.

                    	 Two errors occurred when staff did not timely take final actions to reduce
                       veterans’ benefits after notifying them of the intent to do so. On average,
                       approximately 3.5 months elapsed from the time staff should have
                       reduced the benefits until the date of our inspection. The delays ranged
                       from 2 to 5 months.
                    	 One error occurred when an RVSR did not grant entitlement to
                       Dependents' Educational Assistance when evidence in the claim folder
                       showed the veteran’s disabilities were permanently and totally disabling,
                       thereby warranting the additional benefit.
                    	 One error occurred when an RVSR did not establish the correct effective
                       date for an increased evaluation for a veterans’ prostate cancer. Based on
                       the medical evidence, the veteran warranted an earlier effective date.
                    	 One error occurred when an RVSR did not establish a veteran’s
                       entitlement to special monthly compensation based on multiple
                       disabilities, as required.
                    	 One error occurred when staff requested a medical examination for a
                       veterans’ prostate cancer but did not establish a pending work product to
                       ensure they followed up and reviewed the examination results.
                       Consequently, staff did not review the examination results and were
                       unaware that the cancer was in remission and that a temporary
                       100 percent disability evaluation was no longer supported by medical
                       evidence. Without a pending work product, VARO staff may never have
                       taken action to reduce the temporary 100 percent disability evaluation to
                       a disability level commensurate with the medical condition.
                    	 One error occurred when an RVSR incorrectly continued a temporary
                       100 percent evaluation of a veteran’s prostate cancer although medical
                       evidence showed no active disease or symptoms.

                    In November 2009, VBA provided refresher guidance to VARO staff about
                    the need to input suspense diaries to the electronic record to ensure
                    reminders to schedule medical reexaminations.            However, VARO
                    management had no oversight procedure in place to ensure staff established
                    the suspense diaries as required. Temporary 100 percent disability
                    evaluations could have continued uninterrupted over veterans’ lifetimes if we



VA Office of Inspector General                                                                  4
                                                                   Inspection of VARO San Juan, PR


                    had not identified the need for VARO staff to take actions to schedule
                    reexaminations.

National Audit      In response to a recommendation in our national report, Audit of 100 Percent
Follow-Up           Disability Evaluations (Report No. 09-03359-71, January 24, 2011), the
                    then-Acting Under Secretary for Benefits agreed to review all temporary
                    100 percent disability evaluations and ensure each evaluation had a future
                    examination date entered in the electronic record. Our report stated, “If
                    VBA does not take timely corrective action, they will overpay veterans a
                    projected $1.1 billion over the next 5 years.” The then-Acting Under
                    Secretary for Benefits stated in response to our audit report that the target
                    completion date for the national review would be September 30, 2011.

                    However, VBA did not provide each VARO with a list of temporary
                    100 percent disability evaluations for review until September 2011. VBA
                    subsequently extended the national review deadline to December 31, 2011,
                    and then June 30, 2012, and then again to December 31, 2012. We remain
                    concerned about the lack of urgency VBA demonstrated when completing
                    this review, which is critical to minimize the financial risks of making
                    inaccurate benefits payments. To date, our national audit recommendation
                    for VBA to review all temporary 100 percent disability evaluations remains
                    open. We do not intend to close this recommendation with VBA until our
                    inspection results show a significant decrease in the types of errors identified
                    during our national audit.

                    During our 2012 inspection, we followed up on VBA’s national review of its
                    temporary 100 percent disability evaluation processing. We sampled
                    40 cases from the lists of cases needing corrective actions that VBA provided
                    to the San Juan VARO for review. We determined VARO staff accurately
                    reported actions, such as inputting suspense diaries or scheduling
                    reexaminations, on all 40 cases we reviewed. However, in comparing
                    VBA’s national review lists with our data on temporary 100 percent
                    disability evaluations, we found 12 cases involving prostate cancer or
                    non-Hodgkin’s lymphoma that VBA had not identified. We will continue
                    monitoring this situation as VBA works to complete its national review.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report
                    No. 11-00510-167, May 18, 2011), VBA agreed to develop and implement a
                    strategy for ensuring accurate TBI claims rating decisions. In May 2011,
                    VBA provided guidance to all VARO Directors to implement a policy

VA Office of Inspector General                                                                    5
                                                                 Inspection of VARO San Juan, PR


                    requiring a second-signature on each TBI case an RVSR evaluates until the
                    RVSR demonstrates 90 percent accuracy in TBI claims processing. The
                    policy indicates second signature reviewers come from the same pool of staff
                    as those used to conduct local station quality reviews.

                    We determined that VARO staff incorrectly processed 5 of 14 TBI claims.
                    Available medical evidence showed 2 of these errors affected veterans’
                    benefits and resulted in 36 improper monthly payments totaling $9,775 from
                    as early as February 2011 until the time of our inspection. Summaries of the
                    two errors affecting veterans’ benefits follow.

                    	 An RVSR incorrectly evaluated a veteran’s TBI residuals as 10 percent
                       disabling based on a VA medical examination report noting subjective
                       symptoms of memory, attention, concentration, and executive function
                       impairments. However, the VA physician noted objective evidence of
                       mild impairment based on testing, which supported a 40 percent
                       evaluation. As a result, the veteran was underpaid approximately
                       $5,467 over a period of 1 year and 11 months.
                    	 An RVSR did not establish a veteran’s entitlement to special monthly
                       compensation based on evaluations of multiple disabilities as required by
                       VBA policy. As a result, the veteran was underpaid approximately
                       $4,308 over a period of 1 year and 1 month.

                    The remaining three processing errors had the potential to affect veterans’
                    benefits.

                    	 An RVSR incorrectly granted a veteran a separate evaluation for
                       residuals of TBI when there was an existing co-morbid mental disorder
                       for which an examiner could not delineate symptoms. In cases where
                       medical examiners cannot delineate TBI and mental disorder symptoms,
                       VBA policy requires that staff use those symptoms to establish a single
                       disability evaluation.
                    	 An RVSR prematurely denied a veteran service connection for residuals
                       of TBI in the absence of a VA medical examination report to substantiate
                       the denial. Nonetheless, the claim file included evidence of an in-service
                       TBI and current symptomatology.
                    	 An RVSR used an incomplete VA medical examination report to
                       evaluate disabilities related to a TBI; specifically, the VA examiner did
                       not delineate the TBI and post-traumatic stress symptoms as required. In
                       this case, the RVSR used the same symptoms to assign evaluations for
                       disabilities related to the TBI and post-traumatic stress disorder—a
                       practice which is prohibited by VBA policy.

                    Generally, errors in TBI claims processing occurred because VARO
                    management did not provide effective oversight of quality review


VA Office of Inspector General                                                                 6
                                                                   Inspection of VARO San Juan, PR


                    procedures. For example, VARO management did not track errors found
                    during second-signature reviews to identify trends and areas for local
                    training, as indicated by VBA policy. As a result, veterans may not always
                    receive correct benefit decisions.

Follow Up to        Our prior report, Inspection of the VA Regional Office, San Juan, Puerto
Prior VA OIG        Rico, (Report No. 09-01996-41, December 4, 2009), stated 13 of the total
Inspection
                    19 TBI claims reviewed had processing errors. The majority of the errors
                    occurred because RVSRs used outdated TBI examination worksheets and
                    therefore did not always fully assess all TBI residual disabilities. In response
                    to our recommendations, the VARO Director reported rotating supervisors
                    within the VSC and assigning a Decision Review Officer to the rating team
                    to confront this challenge. The OIG closed this recommendation in August
                    2010. During our January 2013 inspection, we found no instances where
                    staff used outdated TBI examination worksheets. Thus, the corrective
                    actions put in place to address our 2009 inspection results were considered
                    effective.

                    Recommendations

                    1.	 We recommend the San Juan VA Regional Office Director develop and
                        implement a plan to ensure claims processing staff input suspense diaries
                        to the electronic record as required.
                    2.	 We recommend the San Juan VA Regional Office Director develop and
                        implement a plan to review for accuracy the 132 temporary 100 percent
                        disability evaluations remaining from our inspection universe and take
                        appropriate action.
                    3.	 We recommend the San Juan VA Regional Office Director develop and
                        implement a plan to ensure effective second-signature reviews of
                        traumatic brain injury claims decisions.

Management          The VARO Director generally concurred with our recommendations. As
Comments            part of its random compliance reviews, managers and quality review staff
                    plan to revise an existing checklist to ensure staff properly enter suspense
                    diaries in the electronic record. In July and August 2013, staff will receive
                    training on processing claims in need of future examinations.

                    The VARO Director nonconcurred in part with recommendation 2. As we
                    recommended, the VARO began a review of 132 temporary disability
                    evaluations remaining from the OIG’s inspection universe. However, the
                    VARO discontinued this review after receiving revised guidance from the
                    Southern Area Director on managing these types of disability claims. The
                    revised guidance stated VBA would track temporary 100 percent disability
                    evaluations at a national level and provided each VARO a list of claims to
                    review. The San Juan VARO expects to complete its claims reviews for
                    VBA by June 2013. A comparative review of VBA’s national list and the

VA Office of Inspector General                                                                    7
                                                               Inspection of VARO San Juan, PR


                    132 temporary disability evaluations remaining from the OIG’s inspection
                    universe was taking place to determine which cases still needed review.

                    VARO staff received training in May 2013 on second-signature requirements
                    for traumatic brain injury claims. A Certified Decision Review Officer
                    assigned to the Quality Review Team reviews all traumatic brain injury
                    claims requiring second signature. Errors found during these second-
                    signature reviews are tracked to identify training needs.

OIG Response        The Director’s comments and actions are responsive to the
                    recommendations. We will follow up regarding the VARO’s progress in
                    completing reviews of all 132 temporary 100 percent disability evaluations
                    remaining from the OIG’s inspection universe as part of the new
                    VBA-directed national review effort.




VA Office of Inspector General                                                              8
                                                                 Inspection of VARO San Juan, PR


                    II. Management Controls
Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of SAOs. We also considered
Operations
                    whether VSC staff used adequate data to support analyses and
                    recommendations identified within each SAO. An SAO is a formal analysis
                    of an organizational element or operational function. SAOs provide an
                    organized means of reviewing VSC operations to identify existing or
                    potential problems and propose corrective actions. VARO management
                    must publish annual SAO schedules designating the staff required to
                    complete the SAOs by specific dates. The VSC Manager is responsible for
                    ongoing analysis of VSC operations, including completing 11 mandated
                    SAOs annually.

Finding 2           Oversight Is Needed To Ensure Timely and Complete Systematic
                    Analyses of Operations

                    Ten of the 11 mandated SAOs were incomplete (missing required elements)
                    and/or untimely. This occurred because VARO management did not provide
                    adequate oversight to ensure staff responsible for completing SAOs
                    addressed all required elements or submitted the analyses by the due date.
                    As a result, VARO management may not have adequately identified existing
                    and potential problems for corrective action to improve VSC operations.

                    VARO management told us they recently instituted procedures for requesting
                    extensions for SAO submissions in FY 2013. The new procedures require
                    division chiefs to direct all extension requests to the Director’s office for
                    approval. We could not assess the effectiveness of this policy change
                    because it occurred after we conducted our inspection.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, San Juan,
VA OIG              Puerto Rico (Report No. 09-01996-41, December 4, 2009), we determined
Inspection
                    VARO staff did not timely or accurately complete 8 of the 11 SAOs
                    available for review. VARO managers stated this occurred because of
                    inadequate monitoring of employees responsible for completing the SAOs.
                    In response to our recommendations, the Director reported providing training
                    and close monitoring of SAO preparation activities to ensure complete,
                    accurate, and timely submissions. The OIG closed this recommendation in
                    August 2010; however, during our January 2013 inspection, we found
                    VARO staff continued to struggle with providing complete and timely
                    SAOs. Improvement in this area is not evident.

                    Recommendation

                    4.	 We recommend the San Juan VA Regional Office Director develop and
                        implement a plan to ensure staff completely and timely address all
                        required elements of Systematic Analyses of Operations.

VA Office of Inspector General                                                                 9
                                                               Inspection of VARO San Juan, PR


Management          The VARO Director concurred with our recommendation. In July 2013,
Comments            VARO staff will receive additional training on completing SAOs. In
                    addition, a standardized operating procedure will formalize the schedule,
                    assignments, and clearly outline responsibilities for completing SAOs.

OIG Response        The Director’s comments and actions are responsive to the recommendation.
                    We are concerned that untimely and incomplete SAOs at the San Juan
                    VARO continue to be an area of noncompliance since the OIG’s
                    December 2009 benefits inspection report and recommendations for
                    improvement.




VA Office of Inspector General                                                             10
                                                                  Inspection of VARO San Juan, PR


                    III. Eligibility Determinations
Entitlement to      Gulf War veterans are eligible for medical treatment for any mental disorder
Medical             they develop within 2 years of the date of separation from military service.
Treatment for
Mental
                    According to VBA, whenever an RVSR denies a Gulf War veteran service
Disorders           connection for any mental disorder, the RVSR must consider whether the
                    veteran is entitled to receive mental health treatment.

                    In February 2011, VBA updated its Rating Board Automation 2000, a
                    computer application designed to assist RVSRs in preparing disability
                    ratings. The application provides a pop-up notification, known as a tip
                    master, to remind staff to consider Gulf War veterans’ entitlement to mental
                    health care treatment when denying service connection for a mental disorder.
                    This pop-up notification does not generate if a previous decision did not
                    address entitlement to mental health services and a mental condition is not
                    part of the current claim.

Finding 3           Gulf War Veterans Did Not Always Receive Entitlement Decisions
                    for Mental Health Treatment

                    VARO staff did not properly address whether 7 of 30 Gulf War veterans
                    were entitled to receive treatment for mental disorders, according to policy in
                    effect as of December 17, 2012—the date we began our claims folder
                    reviews. As a result, veterans may be unaware of their possible entitlement
                    to treatment for mental disorders and may not get the care they need.
                    Following are summaries of the seven errors observed.

                    	 Three errors occurred when RVSRs correctly addressed the entitlement
                       decisions but did not formally annotate them on the decision documents.
                    	 Three errors occurred when RVSRs did not address veterans’ entitlement
                       to mental health treatment in the current disability decisions—in spite of
                       pop-up notifications reminding them to do so.
                    	 One error occurred when an RVSR did not address entitlement to mental
                       health treatment on the current decision after a previous decision also did
                       not address the issue.

                    In late December 2012, VBA modified its policy to state that RVSRs no
                    longer have to address Gulf War veterans’ entitlement to mental health care
                    in all cases. RVSRs have to address this entitlement when the veteran’s
                    mental health benefit can be granted based on diagnosis of a mental disorder
                    within 2 years of separation from military service. Because this policy
                    modification became effective after we concluded our review of claims
                    folders for the San Juan VARO inspection, we cannot determine whether the
                    change might have affected the number of errors we identified. Therefore,
                    we make no recommendation for improvement.


VA Office of Inspector General                                                                  11
                                                                 Inspection of VARO San Juan, PR


                     IV. Public Contact

Outreach to          In November 2009, VA developed a 5-year plan to end homelessness among
Homeless             veterans by assisting every eligible homeless veteran willing to accept
Veterans             service. VBA generally defines “homeless” as lacking a fixed, regular, and
                     adequate nighttime residence.

                     Congress mandated that at least one full-time employee oversee and
                     coordinate homeless veterans programs at each of the 20 VAROs that VA
                     determined to have the largest veteran populations. VBA guidance, last
                     updated in September 2002, directs that coordinators at the remaining
                     VAROs be familiar with requirements for improving the effectiveness of
                     VARO outreach to homeless veterans.           These requirements include
                     developing and updating a directory of local homeless shelters and service
                     providers. Additionally, the coordinators should attend regular meetings
                     with local homeless service providers, local governments, and advocacy
                     groups to provide information on VA benefits and services.

                     We determined the San Juan VARO and VA Medical Center homeless
                     veterans coordinators worked collaboratively by participating in community
                     outreach events specific to homeless veterans in counties under the VARO’s
                     jurisdiction. Because the VARO provided information on VA benefits and
                     services to homeless shelters and service providers as required, we make no
                     recommendation for improvement in this area; however, VBA needs a
                     performance measurement to fully assess the effectiveness of its homeless
                     veterans outreach efforts.




 VA Office of Inspector General                                                              12
                                                                Inspection of VARO San Juan, PR


Appendix A          VARO Profile and Scope of Inspection

Organization        The San Juan VARO administers a variety of services and benefits, including
                    compensation and pension benefits; vocational rehabilitation and
                    employment assistance; benefits counseling; and outreach to homeless,
                    elderly, minority, and women veterans.

Resources           As of December 2012, the San Juan VARO had a staffing level of
                    134.6 full-time employees. Of this total, the VSC had 110.6 employees
                    assigned.

Workload            The San Juan VARO reported 5,097 pending compensation claims in
                    December 2012.          The average time to complete claims was
                    240.4 days-9.6 days less than the national target of 250.

Scope               We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders.

                    Our review included 30 (19 percent) of 162 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of
                    November 13, 2012. We provided VARO management with 132 claims
                    remaining from our universe of 162 for its review. As a follow up to our
                    national audit, we sampled 40 temporary 100 percent disability evaluations
                    from the SharePoint list VBA provided to the VARO as part of its national
                    review. We also reviewed 14 of the available 16 TBI-related disability
                    claims VARO staff completed from July through September 2012. Two of
                    the TBI claims folders had on going claims and were unavailable for our
                    review—one of the folders had been transferred to a VA medical facility and
                    the other to a brokering facility.

                    Where we identify potential procedural inaccuracies, this information is
                    provided to help the VARO understand the procedural improvements it can
                    make for enhanced stewardship of financial benefits. This information is not
                    provided to require the VARO to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.

                    We assessed the 11 mandatory SAOs the VARO completed in FY 2012. We
                    examined 30 completed claims processed for Gulf War veterans from July
                    through September 2012 to determine whether VARO staff addressed
                    entitlement to mental health treatment in the rating decision documents as
                    required. Further, we assessed the effectiveness of the VARO’s homeless

VA Office of Inspector General                                                               13
                                                                  Inspection of VARO San Juan, PR


                    veterans outreach program by reviewing its directory of homeless shelters
                    and service providers and determining whether staff regularly attended
                    meetings and provided information on VA benefits and services.

Data                We used computer-processed data from the Veterans Service Network’s
Reliability         Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, contained data
                    outside of the time frame requested, included any calculation errors,
                    contained obvious duplication of records, contained alphabetic or numeric
                    characters in incorrect fields, or contained illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the claims
                    folders we reviewed.

                    Our testing of the data disclosed that they were sufficiently reliable to meet
                    our inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders at the San Juan VARO did not
                    disclose any problems with data reliability.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation. We planned and performed the inspection to
                    obtain sufficient, appropriate evidence to provide a reasonable basis for our
                    findings and conclusions based on our inspection objectives. We believe that
                    the evidence obtained provides a reasonable basis for our findings and
                    conclusions based on our inspection objectives.




VA Office of Inspector General                                                                  14
                                                                          Inspection of VARO San Juan, PR


Appendix B           Inspection Summary
Table 2 reflects the operational activities inspected, applicable criteria, and whether or not we
had reasonable assurance of VARO compliance.
                         Table 2. San Juan VARO Inspection Summary
                                                                                              Reasonable
  Five Operational                                  Criteria                                  Assurance of
      Activities                                                                              Compliance
     Inspected
                                                                                              Yes     No
                                             Claims Processing
 1. Temporary        Determine whether VARO staff properly processed temporary 100
    100 Percent      percent disability evaluations. (38 Code of Federal Regulations (CFR)
    Disability       3.103(b)) (38 CFR 3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV, Subpart            X
    Evaluations      ii, Chapter 2, Section J) (M21-1MR Part III, Subpart iv, Chapter 3,
                     Section C.17.e)
 2. Traumatic        Determine whether VARO staff properly processed claims for
    Brain Injury     disabilities related to in-service TBI. (FL 08-34 and 08-36) (Training           X
    Claims           Letter 09-01)
                                          Management Controls
 3. Systematic       Determine whether VARO staff properly performed formal analyses
    Analysis of      of their operations through completion of SAOs. (M21-4, Chapter 5)               X
    Operations

                                         Eligibility Determinations
 4. Gulf War         Determine whether VARO staff properly processed Gulf War
    Veterans’        veterans’ claims, considering entitlement to medical treatment for
    Entitlement to   mental illness. (38 USC 1702) ( M21-1MR Part IX, Subpart ii,                     X
    Mental Health    Chapter 2)(M21-1MR Part III, Subpart v, Chapter 7) (FL 08-15) (38 CFR
    Treatment        3.384) (38 CFR 3.2)
                                              Public Contact
 5. Homeless         Determine whether VARO staff provided effective outreach services.
    Veterans         (Public Law 107-05) (VBA Letter 20-02-34) (VBA Circular 27-91-4)
    Outreach         (FL 10-11) (M21-1, Part VII, Chapter 6)
    Program                                                                                    X




Source: VA OIG
CFR=Code of Federal Regulations, FL= Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                          15
                                                                                   Inspection of VARO San Juan, PR


Appendix C                  VARO Director’s Comments


                Department of
                Veterans Affairs
                                                                     Memorandum
        Date:       May 28, 2013 

       From:        Director, VA Regional Office San Juan, Puerto Rico 


        Subj:       Inspection of the VA Regional Office, San Juan, Puerto Rico 


         To:        Assistant Inspector General for Audits and Evaluations (52) 


                1.  The San Juan VARO’s comments are attached on the OIG Draft Report:  Inspection 
                    of the VA Regional Office, San Juan, Puerto Rico. 

                2.  Please  refer  questions  to  Al  Zabala,  VSCM,  at  787‐772‐7396,  or  Tonia  Robinson‐
                    King, AVSCM, at 787‐772‐7664.   

                        (original signed by:)
                         
                        MARLAN P. WALDROP 
                        Director 


                        Attachment 

                         

                         
                     

                     


                     


                     


                     


                     




VA Office of Inspector General                                                                                  16
                                                                 Inspection of VARO San Juan, PR


                                                                                    Attachment

    Recommendation 1: We recommend the San Juan VA Regional Office Director develop
    and implement a plan to ensure claims processing staff input suspense diaries to the
    electronic record as required.

    Background: Upon review of the 100 percent disability evaluations, 14 instances where
    suspense diaries were not established were discovered. A diary must be established when a
    reexamination is scheduled. When the diary matures, the electronic system generates a
    reminder to alert the RO staff to schedule the reexamination.

    Response: Concur

    Training on the proper procedure for reviewing and authorizing awards where a future
    review examination is indicated is scheduled for July 2013with a make-up date in August
    2013. Compliance with future examination procedures will be incorporated into random
    spot checks conducted by the Veterans Service Center Coaches and Assistant Coaches and
    by the Quality Review Team staff. The Coaches/Asst. Coaches were already using a
    checklist to ensure COVERS and MAP-D compliance. This checklist will be revised to
    include review of the proper use of suspense diaries in the electronic record.

    Recommendation 2: We recommend the San Juan VA Regional Office Director develop
    and implement a plan to review for accuracy the 132 temporary 100 percent disability
    evaluations remaining from our inspection universe and take appropriate action.

    Background: Forty cases were sampled during the OIG inspection. Twelve cases
    involving prostate cancer or non-Hodgkin’s lymphoma had not been identified by VBA.

    Response: Non-Concur in part with comments

    The Regional Office had started the review of the 132 temporary 100 disability percent
    disability evaluations remaining from the OIG inspection universe in order to take
    appropriate action, however, this review was not completed because revised national
    guidance on this topic was received on January 28, 2013. The national guidance indicated
    the 100% disability evaluations would be tracked at the national level.

    Upon receipt of the national listing provided by Compensation Service, the IPC Coach
    reviews the temporary 100 percent disability evaluation cases and if action is deemed
    necessary, the cases are carried to the RVSRs assigned to the Express Lane for the
    necessary rating action. The Regional Office has completed all cases noted under our
    jurisdiction presently based on the national list.

    Presently a comparative review of the 132 case list and the national list is taking place to
    determine which cases still need review. This review as well as the appropriate action is
    expected to be complete no later than end of month June 2013.

    Recommendation 3: The San Juan VA Regional Office Director develop and implement a
    plan to ensure effective second signature reviews of traumatic bring injury claims decisions.

VA Office of Inspector General                                                                17
                                                                 Inspection of VARO San Juan, PR


    Background: Generally errors in TBI claims processing occurred because VARO
    management did not provide effective oversight of quality review procedures. Errors were
    not tracked to identify trends and areas for local training.

    Response: Concur

    A Certified Decision Review Officer assigned to the Quality Review Team reviews all
    claims, to include TBI claims, requiring second signature. Errors found are explained to the
    RVSR and are tracked in order to identify trends that require training. TBI training was
    completed in May 2013 for all employees.

    Recommendation 4: We recommend the San Juan VA Regional Office Director develop
    and implement a plan to ensure staff completely and timely address all required elements of
    Systmatic Analyses of Operations.

    Background: VARO staff continue to struggle with providing complete and timely SAOs.

    Response: Concur

    The Director’s office is currently preparing an SAO SOP that will be shared with the entire
    RO leadership team during training scheduled for July 2013. Although there is a process in
    place regarding the SAO schedule, assignments, etc., this SOP will formalize the SAO
    schedule and assignements and clearly outline responsibilities. The Director and the
    Management Analyst are currently responsible for ensuring Regional Office SAO
    compliance. The SOP will include specific deadlines and the responsible party at every
    level of the Regional Office.

    Also during the July 2013 training, M21-4 Chapter 5 and the OIG’s SAO Notification of
    Errors will be covered. The training will utilze previous incomplete SAOs, as well as
    provide examples of proper SAOs. Additionally, all VSC managers will be provided with
    copies of the updated M21-4 Chapter 5 as guidance to assist with completion of their
    assigned SAOs. Feedback will be provided to each person on the SAO they prepared in an
    effort to improve quality and completeness.

    The VSCM and AVSCM will continue to review the list of SAOs assigned to the VSC
    management staff and revise the assignments as needed. Coaches and Assistant Coaches
    will continue to complete their assigned SAOs and turn them into the VSC Management
    Analyst for review. The VSC Management Analyst will refer them to the AVSCM and the
    VSCM before the SAO is finally submitted to the Director’s Office for review. Within the
    Director’s Office, the MA reviews, then refers, to the Director and the Assistant Director. A
    stantard cover sheet for feedback will continue to be utilized.




VA Office of Inspector General                                                                18
                                                        Inspection of VARO San Juan, PR


Appendix D          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments	   Nora Stokes, Director
                                         Daphne Brantley
                                         Robert Campbell
                                         Madeline Cantu
                                         Ramon Figueroa
                                         Kyle Flannery
                                         Lee Giesbrecht
                                         Lisa Van Haeren
                                         Nelvy Viguera-Butler




VA Office of Inspector General                                                       19
                                                                 Inspection of VARO San Juan, PR


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Southern Area Director
                    VA Regional Office San Juan Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    Resident Commissioner: Pedro Pierluisi



                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               20
